                A-


                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEO'CTT MEMORANDUM

Case Number: A07030014                                                           11         Page 1 of 1



         The allegation of the complainant centered on his suspicion that the subject' reviewed his
         declined NSF proposals2 and then used the information gleaned from the complainant's proposal
         to further the subject's own research efforts. Examination of the files show that the subject did
         not review either of the complainant's two proposals in this area. Examination of the
         complainant's proposal shows that it contains extensive references to the closely related work of
         the subject as well as ten other researchers pursuing the same area of research. Examination of
         the subject's NSF proposal3 submitted nearly concurrently show that the subject's work in this
         specific area has been underway for an extended period of time. The allegation is without
         substance.

                     Accordingly, this case is closed.




         '   Redacted.
             Redacted.
             Redacted.



VSF OIG Form 2 (1 1/02)
